/

AfP£*J£>(K A
liinitefr States (Court of Appeals
For The District of Columbia Circuit

No. 20-5313

September Term, 2020
Filed On: January 4, 2021

In re: Momolu V.S. Sirleaf, Jr.,
Petitioner

BEFORE:

Rogers and Katsas, Circuit Judges, and Sentelle, Senior Circuit
Judge
ORDER

Upon consideration of the petition for writ of habeas corpus and the motion to
proceed in forma pauperis, it is
ORDERED that the motion to proceed in forma pauperis be granted. It is
FURTHER ORDERED that the petition be dismissed for lack of jurisdiction. This
court lacks jurisdiction to entertain an original petition for a writ of habeas corpus. See
Fed. R. App. P. 22(a); Felker v. Turpin. 518 U.S. 651, 660-61 (1996).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Manuel J. Castro
Deputy Clerk

ix 3
A6&tef OF NfeCESSi fTAmb
DURABLE POWER OF ATTORNEY
TAKE NOTICE that I, the undersigned

Prinu Pauls

residents' erf

Gt^ikershorj.

--------- /

-y/W-^do hereby make, constitute and appoint Afo/Wa/.; I', l C-/^/ .Tr. _a resident of Liberia

my

•ue and lawful attorney in fact, to act for me in my name, place and stead. The powers contained herein are
3 be effective immediately.-! give unto my said attorney in fact the full power to do and perform any, all
nd every act that l may legally do through an attorney in fact, and every proper power necessary to carry out
ne purposes for which this general power of attorney is granted, and 1 hereby ratify and affirm the acts done
■y my attorney in fact by virtue of the power herein conferred upon Mo/*cl\> If 5. S/z-Armf Jr. ■ Without
imiting in anyway the full powers herein granted I specifically set out that my attorney in fact may act on
ny behalf with regard to the following:
. I Conduct any business with any banking, brokerage house or financial institution with respect to
my of my accounts, including but not limited to, making deposits and withdrawals, obtaining bank
settlement, passbooks, drafts, money orders, warrants and certificates or vouchers payable to me by any
jerson, firm, corporation or political entity and to have full access to any safety deposit box I may have.
2. Perform any-act necessary to deposit, negotiate, sell or transfer any note, security, stock, bond or
draft of the United States of America, including U S. Treasury Securities.
This durable power of attorney is to continue until my death or until I have provided my attorney in
fact written notice of revocation and is to continue in the event of my mental or physical incapacity and I
specifically direct that the powers hereby conferred shall continue in full force and effect in the event in l
become incompetent. If for any reason a court of proper jurisdiction should appoint a guardian to act for and
on my behalf then I specifically request the court to appoint my attorney in fact as my guardian.
I further direct that a faxed, e-mailed or
deemed as valid as the original and anyone dealing with my attorney in fact may accept such a copy of the
power of attorney without production of the original.
j ^7

IN WITNESS WHEREOF, l have executed this

,20XL,

of AlBcESSiTY

on this

Ed - Sta<d.c?.<M. St’rleo-f t
Romolu SirUw,^ •<- HeneUk $lrt<raf
.Name of First Party

l•

day of

[SEAL]

arum gestor [SEAL]
STATE OF VIRGINIA, CITY/COUNTY OF

, TO WIT:
This is to certify that the foregoing o^eACi cf A^cesshy ^vas^signed and acknowledged before me by

fyctmjehjiJBWtth ZSSirf&JpSr. on this___\\\k
Mv Commission ExpiresADRIENNE CARROLL
NOTARY PUBLIC
j Commonwealth of Virginia

sujf- Registration #7880905 , ,
gFMy Commission Expires: \]3\J2a

day of

... WAEtVIMy

\A<^ cA/\
_____

__9$ (Lo/jaA (LfrAMlL
Notary Public

, 202|_.

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
Lewis F. Powell, Jr. United States Courthouse Annex
1100 East Main Street, Suite 501
Richmond, Virginia 23219-3517
www.ca4.uscourts.gov
Patricia S. Connor
Clerk

Telephone
(804)916-2700

July 16,2018

CONFIDENTIAL
Monolu Sacker Sirleaf, #1166862
Greensville Correctional Center
901 Corrections Way
Jarratt, VA 23870
Dear Mr. Sirleaf:
Complaints against state judges in the State of Maryland should be filed with the
Maryland Commission on Judicial Disabilities, P.O. Box 340, Linthicum Heights, MD 210900340. You should write that commission to obtain information on how to file a complaint
against a Maryland state court judge.
Sincerely,

A
Patricia S. Connor
PSC/swv

n<H

FILED: November 16, 2018
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

l-'"v- •,? •*

In the Matter of a
No. 04-18-90101
Judicial Complaint
Under 28 U.S.C. §351
MEMORANDUM AND ORDER
Complainant brings this judicial complaint against a circuit judge pursuant to the
Judicial Conduct and Disability Act, 28 U.S.C. §§351-364, which provides an
administrative remedy for judicial conduct that is "prejudicial to the effective and
expeditious administration of the business of the courts." 28 U.S.C. § 351(a). The
complaint also makes a number of allegations against persons who are not federal judges
and who are not subject to that Act. Those allegations are not properly before me.
Complainant filed a petition for a writ of habeas corpus in the district court as
“next friend” on behalf of his minor son, who had been convicted of a crime in state
*

..

....——*> f-ALse
?i

—-

C~court- The district'court ordered the petition stricken on the ground that only parties
M0
_/■-/?

0

presenting their cases either personally or through licensed counsel can proceed in federal
court. Complainant then produced a mandamus petition asking that the district court’s
ruling be reversed. He sent the mandamus petition directly to the circuit judge, as well as
to many others. The court of appeals (through a panel that did not include the circuit
judge) ultimately denied the mandamus petition,

\$ ^<5

?

* *1

« •

Complainant alleges in his judicial complaint that the circuit judge took no action
regarding the mandamus petition that he sent directly to the circuit judge (although,
again, the court of appeals did take up, and deny, an identical mandamus petition).^

if

Under 28 U.S.C. § 352(b)( 1 )(A)(ii), claims that are “directly related to the merits
of a decision or procedural ruling” are not subject to review through a complaint of
judicial misconduct. To avoid the merits-related bar, a misconduct claim must contain
"clear and convincing evidence of an arbitrary and intentional departure from, or willful
indifference to prevailing law." In re Memorandum ofDecision, 517 F.3d 558, 562 (U.S.
Jud. Conf. 2008).
Misconduct may also be based upon a showing that the judge's rulings were
motivated by racial or ethnic bias or other improper motive, but the claim must be
supported by sufficient evidence to raise an inference that misconduct has occurred and
cannot be based on mere speculation. See 28 U.S.C. § 352(b)(l)(A)(iii); Rule 3(h)(3)(A),
Rules for Judicial-Conduct and Judicial-Disability Proceedings; In re Doe, 2 F.3d 308
(8th Cir. 1993) (judicial complaint process may not be used to pursue speculative claims).
Complainant has failed to present, and the records do not disclose, any evidence of
willful indifference to prevailing law or other misconduct. Complainant may not pursue
his disagreement with the rulings of the court of appeals through a complaint of judicial
misconduct. The circuit judge certainly was under no obligation to take up a petition sent falt-Cimproperly to the circuit judge directly rather than through the proper channel of the clerk
of court.
2

Accordingly, this judicial complaint is dismissed as merits-related and lacking in
factual support. 28 U.S.C. § 352(b)(l)(A)(ii) & (iii).
IT IS SO ORDERED.

UJa

L.
Chief Judge

3

HI
Barbara Meiklejohn
Clerk of tie Circuit Court for Montgomery County
50 Maryland Ave.
Rockville, MD 20850
Date: Monday, January 22, 2018

RE: Case Number NA
Document(s) .returned for the following reason(s):
I I Costs Not Enclosed. Amount Due $
I I Do Not Need Check.
I I Signature Missing.
□ Not Original Document/Note.
I I No Certificate of Service/Mailing. See MD Rule 1-323
I I Costs Not Paid:
I I Need Additional Copies of Documents.
I I No Address/Telephone Number.
I I. Incorrect Case Number.
I I Reference Number Missing.
CD Sent to Montgomery County Circuit Court in Error.
jXl Other: The enclosed documents are being returned to you. Please provide the
Montgomery County Criminal case number related to the request for Habeas Corpus.
Please note that we do not forward copies to other parties in a case. Additionally, you
may only represent yourself in a Circuit Court matter.
Thank you.

INITIAL HR

The Civil Department
240-777-9401

K^dyvdvy. E

f-Xtfr/g, (J (_

I JH

wi

i\

dll.

Barbara Meiklejohn
Clerk of the Circuit Court for Montgomery County
50 Maryland Ave.
Rockville, MD 20850
Date: Wednesday, February 07, 2018

RE: Case Number N/A
Document(s) returned for the following reason(s):
I I Costs Not Enclosed. Amount Due $
I I Do Not Need Check.
I I Signature Missing.
I I Not Original Document/Note.
I I No Certificate of Service/Mailing. See MD Rule 1-323
I I Costs Not Paid:
I I Need Additional Copies of Documents.
I I No Address/Telephone Number.
I I Incorrect Case Number.
I I Reference Number Missing.
I I. Sent to Montgomery County Circuit Court in Error.
1>3 Other: If you wish to file your Motion to Vacate, you must file it in the District Court
where the case originated. Please also note that we do not forward copies to other
parties.
Thank you.

INITIAL ML

The Civil Department
240-777-9401

(APPENDIX)

f

I-H-

WM-t mo r o v. A-rkansa^r-—
to consider when a next friend can file a habeas corpus petition on
behalf of a prisoner, There are, it said, two firmly rooted prerequisites for next friend standing. First, the next friend*must provide
"an adequate explanation.

such as inaccessibility, mental incompeten­
ce, or other disability-----why the real party in interest cannot appear
on his own behalf to prosecute the action'-'. Second, the "next friend"22
must be;"truly dedicated to the.
—best interests of the. per son on
whose behalf he seeks to litigate *** and it has been further suggested that a next friend'3 must have some significant relationship with
the real party in interest".
The burden is on the "next friend'-3 cle­
arly to establish his status and thereby justify the jurisdiction of
the court.
GASES CITED
Whitmore v. Arkansas, .1990, 110 S.Ct. 1717, 495 U.S. 149, 109 LEd.2d.13i;

2 "Next friend"
2 2 "

3
3 3

110 S.Ct. at.1727, 495 U.S. at 163.

Adequate explanation"

110 S.Ct. at 495 U.S. 163.

"Significant relationship"
"Burden on next friend"

110 S.Ct. at 1727, 495 U.S. at 163-164.
110 S.Ct. at 1727, 495 U.S. at 164

REFERANCES
FEDERAL PRACTICE and PROCEDURE: JURISDICTION / Related Matters (3rd)
U7B)
§•'4268.3, pgs 487-487.

[APPENDIX]

Gt — H

A—Mary Earl Erickson; Paul L. Erickson, parents and next friends of
Chase W. Erickson, Plain tiffs-Appellants,
v.
BOARD OF EDUCATION OF BALTIMORE COUNTY, a Body Corporate and Politic
of the State of Maryland; Anthony G. Marchione, Officially, Superin­
tendent , Defendant-Appellees.
Like attorneys appearing pro se, attorney-parents are generally
, incapable of exercising sufficient independent judgement on be­
half of their children to ensurethat reason, rather than emotion
will dictate the conduct of the litgation. Kay, 499 U.S. at;437,111 S.Ct. 1435. (see,pg 292,tf[3] at 2nd

B.

[rjhfant is' always the ward of every, court wherein his rights .. * 5
are brought into, jeopardy, and is entitled to the most jealous care
that no injustice be done to him." (see, Wenger, 143 F-3dat 125,quoting Johns v. County of San:Diego114 F.3d 874, 877 (9th Cir. 1997)/;
at pg,: 293 112,.of case ERICKSON.

